                 Department of the Interior
                 Office of Inspector General




              Audit Report



               U.S. Fish and Wildlife Service
             Wildlife and Sport Fish Restoration
              Program Grants Awarded to the
       Commonwealth of Pennsylvania, Game Commission,
          From July 1, 2006, Through June 30, 2008




Report No.
R-GR-FWS-0008-2009                    November 2009
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                              November 12, 2009

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the Commonwealth of Pennsylvania, Game Commission, From
           July 1, 2006, Through June 30, 2008 (No. R-GR-FWS-0008-2009)

        This report presents the results of our audit of costs claimed by the Commonwealth of
Pennsylvania (Commonwealth), Game Commission (Commission), under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the Commonwealth under
the Wildlife and Sport Fish Restoration Program (the Program). The audit included claims
totaling approximately $28.3 million on 10 grants that were open during Commonwealth fiscal
years (CFYs) ended June 30 of 2007 and 2008 (see Appendix 1). The audit also covered
Commission compliance with applicable laws, regulations, and FWS guidelines, including those
related to the collection and use of hunting and fishing license revenues and the reporting of
program income.

         We found that the Commission complied, in general, with applicable grant accounting
and regulatory requirements. However, we questioned costs totaling $2,689,153 (federal share)
as a result of unsupported payroll allocations. In addition, we found that the Commission did not
eliminate duplicates from its annual license certifications, maintain records on the funding source
of its equipment, or establish controls to ensure that labor hours were accurately recorded in its
accounting system.

        In addition, we found that the Commission is holding over $5 million in an escrow
account, which it obtained through a transaction involving land originally purchased with
Program funds. However, FWS does not receive periodic reports on the balance remaining in
this account and the interest earned. Since FWS needs to be consulted in the eventual
disbursement of these funds, we suggest that it require the Commission to provide bank
statements or other regular reports on the status of funds in the escrow account.
        We provided a draft report to FWS for a response. We summarized Commission and
FWS Region 5 responses after each recommendation, as well as our comments on the responses.
We list the status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
February 10, 2010. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader,
Ms. Lori Howard, or me at 703–487–5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
                                               Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Commission:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting license revenues solely for wildlife program activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $28.3 million on the ten grants that were
open during CFYs 2007 and 2008 (see Appendix 1). We report only on those conditions that
existed during this audit period. We performed our audit at Commission headquarters in
Harrisburg, PA, and visited 2 regional offices, 17 State game lands, 6 county headquarters
offices, and 1 wildlife learning center (see Appendix 2). We performed this audit to supplement,
not replace, the audits required by the Single Audit Act Amendments of 1996 and by Office of
Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and


1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          3
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Commission;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Commission employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Commission used hunting license revenues solely for
       administration of the Commission; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of the Commission’s operations.

Prior Audit Coverage
On May 31, 2007, we issued “Audit on the U.S. Fish and Wildlife Service Federal Assistance
Program Grants Awarded to the Commonwealth of Pennsylvania Game Commission From
July 1, 2002, Through June 30, 2004” (R-GR-FWS-0008-2005). We followed up on all ten
recommendations in the report and found that the Department of the Interior, Office of the
Assistant Secretary for Policy, Management and Budget (PMB) considers nine recommendations
resolved but not implemented. We did not identify any conditions during our current audit that
warrant repeating the findings from the prior audit, but we note that PMB cannot classify
recommendations as implemented until it receives adequate documentation supporting that
classification.

We also reviewed the Single Audit Reports of the Commonwealth of Pennsylvania for CFYs
2006 and 2007, and the Comprehensive Annual Financial Reports (CAFRs) for CFYs 2007 and
2008. The Commission’s Wildlife Restoration Program was not selected as a major program for
review in the Single Audit Reports, and an unqualified opinion was issued in the CAFRs.



                                                4
                                   Results of Audit
Audit Summary
We found that the Commission complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling
$2,689,153. We discuss the findings in more detail in the Findings and Recommendations
section.

       Questioned Costs. The Commission charged $2,689,153 in payroll costs (federal share)
       to two grants using an unsupported allocation method.

       Incorrect License Certifications. The Commission did not eliminate duplicate license
       holders from its annual certifications.

       Inadequate Equipment Management System. The Commission’s property records did
       not specify the funding source of equipment purchased with Program funds and license
       revenue.

       Discrepancies Between Timesheets and Accounting System Data. The Commission
       did not establish adequate controls to ensure that information from employees’ timesheets
       was accurately recorded in its accounting system.

Findings and Recommendations
A.     Questioned Costs – $2,689,153

       Commission employees overseeing land management activities charged all their time to
       the Lands Management Supervisory account rather than a specific grant or project. The
       Commission then allocated 35 percent of the employees’ total payroll costs to the
       Operations and Maintenance Grant (W-74-D) and 44 percent to the Habitat Management
       Grant (W-75-D). The remaining 21 percent of the Lands Management Supervisory
       account was funded by the Commonwealth. However, this allocation was based on an
       analysis of labor hours conducted before 2002 that was never approved by FWS.

       The Code of Federal Regulations (C.F.R.), in 2 C.F.R. § 225, Appendix A, Subsection
       E.2.a, states that typical direct costs chargeable to federal awards include the
       compensation of employees for the time devoted to and identified specifically for the
       performance of those awards. Furthermore, Appendix B, Subsection 8.h(4), requires that
       a distribution of employees’ wages be supported by personnel activity reports or
       equivalent documentation when they work on multiple activities or cost objectives, or a
       substitute system must be approved by the cognizant federal agency. Finally, according
       to Appendix B, Subsection 8.h(5)(e), labor distribution percentages determined before
       employees perform the services do not qualify as support for charges to federal awards.

                                               5
     As a result, we have no assurance that $2,689,153, the federal share of payroll costs
     charged to Grants W-74-D and W-75-D, was used to support the grants’ objectives in the
     proportions claimed by the Commission.

     Recommendations

     We recommend that FWS:

     1.       resolve the $2,689,153 in costs questioned as unsupported, and

     2.       require the Commission to ensure that field staff who oversee land management
              activities charge their time directly to the grant for which they perform work.

     Commission Response

     The Commission concurs with the recommendations and is currently taking steps to
     resolve and implement the recommendations.

     FWS Response

     FWS Regional officials concurred with the recommendations and stated that they would
     work with the Commission in developing a corrective action plan to resolve the
     recommendations.

     OIG Comments

     Based on both Commission and FWS responses, additional information is needed in the
     corrective action plan, including:

          •    the specific action(s) taken or planned to address the recommendations;

          •    targeted completion date;

          •    titles of officials responsible for implementing the actions taken or planned; and

          •    verification that FWS headquarters officials reviewed and approved of actions
               taken or planned by the Commission.

B.   Incorrect License Certifications

     States are required to report the number of hunting license holders to FWS annually and
     certify the accuracy of their counts. These certifications are important because FWS
     bases the apportionment of grant funds, in part, on each State’s number of reported
     license holders. However, for at least 15 different types of hunting licenses, the
     Commission did not eliminate duplicate license holders from its certifications for license
     years 2005 and 2006.


                                                6
     According to 50 C.F.R. § 80.10(c)(5), “The director of the State fish and wildlife agency
     is responsible for eliminating multiple counting of single individuals in the information
     that he or she certifies and may use statistical sampling or other techniques approved by
     the Director for this purpose.”

     This issue occurred because the Commission did not have a process to remove duplicate
     license sales from its annual certification. According to Commission officials, a new
     automated Point of Sale system will be implemented beginning in June 2009, which
     should be able to eliminate all duplicates. However, if its timetable is delayed, the
     Commonwealth could continue to issue incorrect license certifications and receive an
     inappropriate apportionment of Program funds.

     Recommendation

     We recommend that FWS ensure the Commission implements a procedure to eliminate
     duplicate license holders from its annual license certifications.

     Commission Response

     The Commission concurs with the recommendation and is currently taking steps to
     resolve and implement the recommendation.

     FWS Response

     FWS Regional officials concurred with the recommendation and stated that they would
     work with the Commission in developing a corrective action plan to resolve the
     recommendation.

     OIG Comments

     Based on both Commission and FWS responses, additional information is needed in the
     corrective action plan, including:

        •   the specific action(s) taken or planned to address the recommendation;

        •   targeted completion date;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Commission.

C.   Inadequate Equipment Management System

     The Commission maintains an automated equipment management system to track
     property costing over $5,000 and all weapons and computers, regardless of cost.
     However, this system does not identify the funding source of the Commission’s

                                             7
equipment, and Commission officials informed us that a labor-intensive effort would be
required to determine this information for all of its property

According to 43 C.F.R. § 12.72(d)(1), States must maintain property records that detail,
among other things, the percentage of Federal participation in the cost of the property.
Adherence to this regulation helps to ensure compliance with 42 C.F.R. § 12.72, which
requires grantees to use federally-funded equipment for the program or project for which
it was acquired. States also need to maintain records of equipment purchased with
license revenues because 50 C.F.R. § 80.4(a)(2) states that if property acquired with such
funds is sold, any proceeds should be treated as license revenue.

This condition occurred because the automated equipment records system does not
contain a field to note the funding source, and the Commission did not otherwise record
this information. Without maintaining accurate records on the funding source of its
property, the Commission cannot ensure that (1) the property items purchased with
Program funds and license revenues are being utilized for the purposes for which they
were originally acquired or (2) the proceeds from the sale of property purchased with
Program funds and license revenues are properly credited.

Recommendation

We recommend that FWS ensure the Commission implements a process to record the
funding source of its equipment.

Commission Response

The Commission concurs with the recommendation and is currently taking steps to
resolve and implement the recommendation.

FWS Response

FWS Regional officials concurred with the recommendation and stated that they would
work with the Commission in developing a corrective action plan to resolve the
recommendation.

OIG Comments

Based on both Commission and FWS responses, additional information is needed in the
corrective action plan, including:

   •   the specific action(s) taken or planned to address the recommendation;

   •   targeted completion date;

   •   titles of officials responsible for implementing the actions taken or planned; and



                                        8
        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Commission.

D.   Discrepancies Between Timesheets and Accounting System Data

     Field employees detail the number of hours they work on specific grants by completing
     manual timesheets. Headquarters and regional personnel are responsible for inputting the
     information from these timesheets into the Commission’s accounting system. However,
     because the Commission did not have adequate internal controls, such as a requirement to
     reconcile the timesheets with data in the accounting system, payroll information for
     employees in the Northwest and Southcentral Regions did not always correspond with the
     original timesheets. As a result, the Commission could overcharge the Program grants
     for labor costs.

     This situation is contrary to 2 C.F.R. § 225, Appendix B, Subsection 8.h(1) and (4),
     which states that charges to federal awards for salaries and wages will be based on
     payrolls documented in accordance with generally accepted practices of the State and
     should be supported with documentation such as personnel activity reports.

     Recommendation

     We recommend that FWS ensure the Commission develops controls to verify that labor
     information entered into its accounting system accurately reflects employees’ timesheets.

     Commission Response

     The Commission concurs with the recommendation and is currently taking steps to
     resolve and implement the recommendation.

     FWS Response

     FWS Regional officials concurred with the recommendation and stated that they would
     work with the Commission in developing a corrective action plan to resolve the
     recommendation.

     OIG Comments

     Based on both Commission and FWS responses, additional information is needed in the
     corrective action plan, including:

        •   the specific action(s) taken or planned to address the recommendation;

        •   targeted completion date;

        •   titles of officials responsible for implementing the actions taken or planned; and



                                             9
•   verification that FWS headquarters officials reviewed and approved of actions
    taken or planned by the Commission.




                                   10
                                                                 Appendix 1


           PENNSYLVANIA GAME COMMISSION
       FINANCIAL SUMMARY OF REVIEW COVERAGE
          JULY 1, 2006, THROUGH JUNE 30, 2008

                                            Questioned Costs
                                            (Federal Share)
 Grant       Grant        Claimed
Number      Amount          Costs      Unsupported       Total
W-73-T-6      $675,000      $727,713
W-73-T-7       675,000       862,111
W-74-D-6     4,333,500     4,297,429     $608,290      $608,290
W-74-D-7     4,133,500     4,300,428      587,861       587,861
W-75-D-6     6,035,000     6,138,482      753,977       753,977
W-75-D-7     6,900,000     7,017,087      739,025       739,025
W-76-E-6       972,600     1,573,150
W-76-E-7       969,920     1,675,725
WR-1-C-6       672,749       732,666
WR-1-C-7       672,749       938,841
TOTAL      $26,040,018   $28,263,632    $2,689,153    $2,689,153




                               11
                                        Appendix 2

PENNSYLVANIA GAME COMMISSION
        SITES VISITED
            Headquarters
             Harrisburg

           Regional Offices
         Northwest - Franklin
       Southcentral - Huntingdon

    County Headquarters Offices
           Butler County
         Clearfield County
            Erie County
           Fulton County
          Indiana County
         Venango County

          State Game Lands
          Northcentral Region
                No. 331

           Northwest Region
                No. 39
                No. 44
                No. 95
               No. 154
               No. 162
               No. 167
               No. 218
               No. 304
               No. 306

          Southcentral Region
                No. 53
               No. 118
               No. 124
               No. 249

           Southwest Region
               No. 248
               No. 273
               No. 276

     Wildlife Education Center
  Pymatuning Wildlife Learning Center




                  12
                                                                                Appendix 3

                     PENNSYLVANIA GAME COMMISSION
              STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

 Recommendations                     Status                        Action Required
A.1, A.2, B, C, and D   FWS management concurs          Additional information is needed in
                        with the recommendations, but   the corrective action plan, including
                        additional information is       the actions taken or planned to
                        needed as outlined in the       implement the recommendations,
                        “Actions Required” column.      targeted completion date(s), the title
                                                        of official(s) responsible for
                                                        implementation, and verification that
                                                        FWS officials reviewed and
                                                        approved of actions taken or planned
                                                        by the State. We will refer
                                                        recommendations not resolved
                                                        and/or implemented at the end of 90
                                                        days (after February 10, 2010) to the
                                                        Assistant Secretary for Policy,
                                                        Management and Budget for
                                                        resolution and/or tracking of
                                                        implementation.




                                        13
                                                 


                      Report Fraud, Waste, Abuse,  
                         and Mismanagement
                                                   
                            Fraud,
                                    waste and abuse in government
                            concern everyone: Office
                                                         of Inspector
                            General staff, Departmental employees,
                            and the general public. We actively
                            solicit allegations of any inefficient and
                            wasteful  practices, fraud, and abuse
                            related to Departmental or Insular Area
                           
                            programs and operations. You can
                                                                     
                            report allegations to  us in several ways.
                                                 
                                                     
                                                 
                                                 
                 By Mail:           U.S. Department of the Interior  
                                    Office of Inspector General  
                                    Mail Stop 4428 MIB  
                                    1849 C  Street, NW  
                                    Washington, D.C. 20240  
                   
                 By Phone :         24‐Hour Toll Free                    800‐ 424‐5081 
                                    Washington Metro Area                703‐ 487‐5435 
                   
                 By Fax:            703‐487‐5402
                   
                 By Internet:       www. doioig.gov/hotline
              
                                                                                           
